la

Appendix A
5th Circuit Opinion
UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT
Case No. 20-30417
IN THE MATTER OF: DONALD H. GRODSKY, Debtor
JOHN L. HOWELL, Appellant
versus
GORDON, ARATA, MCCOLLAM, DUPLANTIS & EAGAN, L.L.C.; CHAFFE MCCALL, L.L.P.; SEALE &
ROSS, A PROFESSIONAL LAW CORPORATION, Appellees
Appeal from the United States District Court for the Eastern District of Louisiana
Before STEWART, GRAVES, and HIGGINSON, Circuit Judges.
PER CURIAM:
IT IS ORDERED that the motion of Appellee Gordon, Arata, McCollam, Duplantis & Eagan, L.L.C., to
dismiss the appeal as frivolous is GRANTED.
IT IS FURTHER ORDERED that the motion of Appellee Gordon, Arata, McCollam, Duplantis &
Eagan, L.L.C., for monetary sanctions against the Appellant of at least $28,470.76 is GRANTED in
part, in that appellant shall pay all costs incurred in this appeal, and DENIED in part as to
damages, including attorneys’ fees.
IT IS FURTHER ORDERED that the motion of Appellee Gordon, Arata, McCollam, Duplantis &
Eagan, L.L.C., to enjoin the Appellant from pursuing any further litigation against any law firm,
lawyer, or other party involved in this bankruptcy case without both the bankruptcy court’s prior
approval and Appellant’s payment of sanctions is GRANTED in part, in that Appellant shall be
enjoined from bringing another lawsuit or any further litigation (irrespective of whether
Appellant is represented by counsel or proceeding pro se) related to this bankruptcy case in any
federal court over which we have jurisdiction without first obtaining permission from the court in
which Appellant seeks to file suit, and DENIED in part in that Appellant may seek prior approval
before appellate costs are paid in full.

Case: 20-30417 Document: 00515514878 Date Filed: 08/04/2020

2a

Appendix B
District Court Order and Judgment
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
IN RE: DONALD H GRODSKY
CIVIL ACTION No. 19-14801
SECTION I
ORDER
Appellant John L. Howell ("Howell") moves1 to vacate the Court's judgment2 dismissing Howell’s appeal
of the United States Bankruptcy Court’s December 18, 2019 order and to expand the record to include new
evidence. Howell also asks the Court to issue sanctions against appellees David Adler; Gordon, Arata,
Montgomery, Barnett, McCollam, Duplantis & Eagan, LLC; Chaffe McCall LLP; Seale and Ross PLC; and
attorneys Fernand Laudumiey, David Messina, Leslie Bolner, and Glen Galbraith.3
On June 17, 2020, the United States Court of Appeals for the Fifth Circuit affirmed in all respects this
Court's affirmance of two bankruptcy court orders dismissing all claims brought by Howell and Elise
LaMartina ("LaMartina”) related to the ownership of a promissory note and enjoining all future claims
regarding the same.4 The Fifth Circuit concluded that the bankruptcy court was correct in holding that
their suit violated the bankruptcy court’s permanent injunction barring Howell and LaMartina from
relitigating the promissory note and that their suit lacked any underlying merit.5
Howell’s instant motion raises claims related to the promissory note.6 Pursuant to the bankruptcy
court's permanent injunction, as well as this Court’s and the Fifth Circuit’s affirmance of the bankruptcy
court’s orders, Howell cannot relitigate these claims,
Accordingly,
IT IS ORDERED that the motion to vacate the judgment and the motion to expand the record and for
sanctions are DENIED.7
New Orleans, Louisiana, June 23, 2020.
LANCE M. AFRICK
UNITED STATES DISTRICT JUDGE
4R. Doc. No. 25.
2R. Doc. No. 18.
3R. Doc. No. 25, at 1.
4 In re Grodsky, No. 19-30494 (5th Cir. June 17, 2020).
5 See id. The Fifth Circuit also found that Howell and LaMartina's attempt to undo the bankruptcy court’s
turnover order was barred by principles of res judicata. See id.
6 See R. Doc. No. 25.7 Howell’s motion is also untimely pursuant to Rule 8022(a) of the Federal Rules of
Bankruptcy Procedure, which requires that any motion for rehearing by the district court be filed within
fourteen days after entry of judgement on appeal. Fed. R. Bankr. P. 8022(a)(1).
Case 2:19-cv-14801-LMA-KWR Document 27 Filed 06/23/20

3a

District Court Order and Judgment
(CONTINUED)
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
IN RE: DONALD H GRODSKY
CIVIL ACTION No. 19-14801
SECTION I
ORDER
Considering John L. Howell’s motion1 for reconsideration of this Court’s order2 denying his motion3 to
vacate the Court’s March 13, 2020 judgment,4 expand the record to include new evidence, and impose
sanctions,
IT IS ORDERED that the motion is DENIED.
New Orleans, Louisiana, June 30, 2020.
LANCE M. AFRICK
UNITED STATES DISTRICT JUDGE
1R. Doc. No. 33.
2 R. Doc. No. 27.
3 R. Doc. No. 25.
4R. Doc. No. 18.
Case 2:19-cv-14801-LMA-KWR Document 35 Filed 06/30/20
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
IN RE: DONALD H GRODSKY
CIVIL ACTION No. 19-14801
SECTION I
JUDGMENT
Considering the Court's order granting the joint motion1 by Gordon, Arata, Montgomery, Barnett,
McCollam, Duplantis & Eagan, LLC and Seale & Ross to dismiss John L. Howell's ("Howell") appeal of the
United States Bankruptcy Court’s order allowing attorneys’ fees and costs,
IT IS ORDERED that Howell’s appeal is DISMISSED WITH PREJUDICE.
New Orleans, Louisiana, March 13, 2020.
LANCE M. AFRICK
UNITED STATES DISTRICT JUDGE
1R. Doc. No. 4.
Case 2:19-cv-14801-LMA-KWR Document 18 Filed 03/13/20

4a

District Court Order and Judgment
(CONTINUED)
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
IN RE: DONALD H GRODSKY
CIVIL ACTION No. 19-14801
SECTION I
ORDER & REASONS
Before the Court is a joint motion1 by Gordon, Arata, Montgomery, Barnett, McCollam, Duplantis & Eagan,
LLC ("Gordon Arata") and Seale & Ross to dismiss John L. Howell's ("Howell") appeal of the US Bankruptcy
Court's order allowing attorneys' fees, or, alternatively, to affirm the bankruptcy court's order. For the following
reasons, the motion is granted and Howell's appeal is dismissed.
I.
This appeal is the latest action in a series of proceedings involving Howell, Elise LaMartina ("LaMartina"), and
their dispute with a Chapter 7 Trustee and his attorneys over matters related to foreclosure proceedings and a
mortgage note on a condominium that Howell and LaMartina previously occupied. The following are the facts
and procedural history relevant to this appeal.2
In 2015, the bankruptcy court ordered a turnover of the mortgage note to the Trustee based on a state
court determination that Donald Grodsky ("Grodsky"), the Chapter 7 debtor in this case, was the owner of the
note.3 The Trustee then initiated foreclosure proceedings with respect to the condominium in state court. In
January 2018, Howell and LaMartina filed an adversary proceeding against the Trustee and his attorneys in
bankruptcy court.4
On June 13, 2018, the bankruptcy court dismissed Howell and LaMartina's complaint in the adversary
proceeding and permanently enjoined them from commencing or continuing any claim or cause of action
relating in any way to:
(i) the ownership of the [mortgage] Note;
(ii) the nucleus of operative facts surrounding the determination of ownership of the Note, litigation
concerning the Note and anything arising out of that Note, and any allegations as to alleged misconduct by any
of the Defendants in connection with any prior litigation relating to the ownership of the Note; and
(iii) the nucleus of operative facts in any way relating to [the bankruptcy court's] issuance of the Turnover
Order entered on May 1, 2015 ordering the turnover of the Note to the Trustee as property of the estate.5
This Court affirmed the bankruptcy court's decision dismissing Howell's claims and issuing a permanent
injunction, and it adopted the bankruptcy court's opinion as its own on May 31, 2019.6
The instant appeal arises from the December 18, 2019 order by the bankruptcy court allowing attorneys'
fees and costs for Gordon Arata, Seale & Ross, and Chaffe McCall, LLP ("Chaffe McCall").7 The application for
attorneys' fees and costs requested compensation for the Trustee's attorneys for professional services rendered
and reimbursement of costs incurred in connection with the proceedings against Howell and LaMartina.8The
application included a memorandum addressing the
calculation of attorneys' fees pursuant to the "lodestar" method and each factor to be considered for an
adjustment of the lodestar amount under Johnson v. Georgia Highway Express, Inc., 488 F.2d 714 (5th Cir.
1974).9 See In re Pilgrim's Pride Corp., 690 F.3d 650, 655-56 (5th Cir. 2012) (explaining that bankruptcy courts
must consider the lodestar and Johnson factors when determining reasonable attorneys' fees). Also attached to
the application were detailed invoices itemizing each matter and costs incurred for which Gordon Arata, Seale
& Ross, and Chaffe McCall sought compensation.10

5a
After reviewing the application and the relevant record and finding that the professional services were duly
rendered and that the services rendered and costs incurred were reasonable, the bankruptcy court authorized
the Trustee to pay to Gordon Arata, Seale & Ross, and Chaffe McCall the
attorneys' fees and costs set forth in the application.11 Such payments were due immediately upon entry of the
order.12 The bankruptcy court also ordered that the $8,800 reserve for the Trustee's statutory commission and
reimbursement of expenses and the $2,200 reserve for future costs be held by the Trustee pending the
Trustee's filing of his final account or further order of the bankruptcy court.13 Pursuant to the order, any funds
remaining after payment of the Trustee's statutory commission and reimbursement of expenses are to be
allocated and paid to Gordon Arata and Chaffe McCall on a 63%/37% allocation basis as provided for in the
application.14
Howell filed a notice of appeal of the bankruptcy court's order on December 30, 2019.15 He presents three
issues on appeal: 1) whether the bankruptcy court erroneously granted the application for allowance of
attorneys' fees and costs; 2) whether "trustees' and attorneys' fees and expenses" exceeding $150,000 are
"reasonable for the administration of a single estate asset in which the debtor has no, zero (0) equity in which
to justify its administration"; and 3) whether the Trustee and his attorneys should be compensated over
$150,000 "for actions taken with the express intent of defrauding the estate's only secured claimant,"16 In his
opposition to the application, Howell alleged that he is the only secured claimant of Grodsky's estate based on
a "Confessed Judgment Promissory Note" and Security Agreement that Grodsky allegedly executed on
September 13, 2007 and that Howell filed as proof of claim on January 30, 2013.17
Gordon Arata and Seale & Ross move to dismiss Howell's appeal, arguing that dismissal is warranted based
on Howell's failure to pay the required filing fee under Federal Rule of Bankruptcy Procedure 8003(a)(3)(C) and
the frivolous and "baseless" nature of Howell's appeal pursuant to 28 U.S.C. § 1915(e)(2)(i)-(ii).18 Gordon Arata
and Seale & Ross also ask the Court, in the alternative, to affirm the bankruptcy court's order.19
II.
This Court's jurisdiction to review the bankruptcy court's order derives from 28 U.S.C. § 158(a)(1).
"[Conclusions of law are reviewed de novo, findings of fact are reviewed for clear error, and mixed questions of
fact and law are reviewed de novo." In re Nat'l Gypsum Co., 208 F.3d 498, 504 (5th Cir. 2000). "[Wjhen the
bankruptcy court's weighing of the evidence is plausible in light of the record taken as a whole, a finding of
clear error is precluded, even if [the reviewing court] would have weighed the evidence differently." In re
Bradley, 501 F.3d 421,434 (5th Cir. 2007). Under the clear error standard, the bankruptcy court's order will only
be reversed if the district court has a "firm and definite conviction that a mistake has been made." Matter of
Linn Energy, L.L.C., 936 F.3d 334, 340 (5th Cir. 2019).
A bankruptcy court's award of attorneys' fees is reviewed for abuse of discretion and its underlying fact
findings for clear error. In re Hampton Vill., Inc., 122 F. App'x 717, 719 (5th Cir. 2004) (citing In re Anderson, 936
F.2d 199, 203 (5th Cir. 1991)). "An abuse of discretion arises where (1) the bankruptcy judge fails to apply the
proper legal standard or follows improper procedures in determining the fee award, or (2) bases an award on
findings of fact that are clearly erroneous." In re Evangeline Refining Co., 890 F.2d 1312,1325 (5th Cir. 1989).
i. Rule 8003 of the Federal Rules of Bankruptcy Procedure sets forth certain procedural requirements for
filing, with the bankruptcy clerk, a notice of appeal of a bankruptcy court's order, including payment of the
prescribed fee. See Fed. R. Bankr. P. 8003(a)(3)(C). Pursuant to Rule 8003(a)(2), a district court may dismiss an
appeal of a bankruptcy court's order because of an appellant's failure to comply with these procedural
requirements.20See Fed. R. Bankr. P. 8003(a)(2).
Dismissal lies within the district court's discretion, though the Fifth Circuit has advised that "[dismissal is a
harsh and drastic sanction that is not appropriate in all cases." In re CPDC Inc., 221 F.3d 693, 699 (5th Cir. 2000).
When determining whether dismissal is an appropriate sanction for procedural infractions, factors relevant to
the court's consideration include whether the infraction was harmless or prejudiced the appellees, whether the
appellant has exhibited "obstinately dilatory
conduct," and whether enforcement of the bankruptcy rules would "ensure the swift and efficient

6a
resolution of disputes pertinent to the distribution of the bankruptcy estate." See id. at 699-701.
Gordon Arata and Seale & Ross argue that the Court should dismiss Howell's appeal because he failed to pay
the prescribed fee or obtain a fee waiver to proceed in forma pauperis.21 They also assert
that even if Howell had requested a fee waiver, he would not be entitled to one because the bankruptcy court
lacks the authority to waive the filing fee for a creditor such as Howell.22
Pursuant to 28 U.S.C. § 1930(f)(1), the district court and the bankruptcy court may waive the filing fee for
certain individuals in a Chapter 7 bankruptcy case "[u]nder the procedures prescribed by the Judicial
Conference of the United States." Section 1930(f)(3) specifically provides that "[t]his subsection does not
restrict the district court or the bankruptcy court from waiving, in accordance with Judicial Conference policy,
fees prescribed under this section for other debtors and creditors." 28 U.S.C. § 1930(f)(3). Although the Judicial
Conference does not currently have a specific policy or procedure with respect to fee waivers for "other debtors
and creditors," there is no policy that prohibits a district court or bankruptcy court from waiving the prescribed
filing fee for creditors.23 While some courts have found that the absence of a specific policy from the Judicial
Conferences bars a court from waiving such fee, see, e.g., In re LeGare, No. 13-32542, 2013 WL 5417212, at *2
(Bankr. N.D. Ohio Sept. 26, 2013), this Court agrees with other courts concluding that the better view is that the
district courts and bankruptcy courts have authority to waive the filing fee for creditors who commence
adversary proceedings in a bankruptcy case. See In re Richmond, 247 F. App'x 831, 832-34 (7th Cir. 2007)
(collecting cases); In re Collins, No. 17-10049, 2017 WL 979021, at *2-5 (Bankr. S.D.N.Y. Mar. 10, 2017)
(collecting cases); In re Grason, No. 17-3129, 2017 WL 3313998, at *2 (C.D. III. Aug. 3, 2017); In re Boydstun, No.
7-11-12456, 2013 WL 211128, at *2 (Bankr. D.N.M. Jan. 18, 2013).
The record demonstrates that the bankruptcy court waived the prescribed filing fee for Howell's notice of
appeal and that it permitted Howell to continue proceeding in forma pauperis in connection with his appeal.24
Because any prescribed fee for filing a notice of appeal of a bankruptcy court's order is to filed with the
bankruptcy clerk, Howell was not required to file a separate application to proceed in forma pauperis in this
Court.25See Fed. R. Bankr. P. 8003(a). Accordingly, the Court considers Howell to have properly maintained his
pauper status in this appeal; he is, therefore, not required to pay the prescribed filing fee.
Considering Howell's pauper status, however, the Court finds that dismissal of his appeal is warranted on
grounds of frivolousness.
ii. Pursuant to 28 U.S.C. § 1915, which governs proceedings in forma pauperis, the court "shall dismiss" an
action or appeal that is frivolous. 28 U.S.C. § 1915(e)(2)(B)(i). An appeal by a party proceeding in forma pauperis
may be dismissed as frivolous if it does not have an arguable basis in fact or law. Neitzke v. Williams, 490 U.S.
319, 325 (1989); Matter of Kite, 710 F. App'x 628, 631 (5th Cir. 2018); see In re Foster, 644 F. App'x 328, 331 (5th
Cir. 2016) (dismissing bankruptcy appeal as frivolous because "it [was] apparent the appeal lacks merit").
In this case, the bankruptcy court reviewed the application, the record, and Howell's late opposition, found
that the services were duly rendered and the services and expenses incurred were reasonable, and granted the
application.26 Noting that Howell's opposition was untimely, the bankruptcy court nevertheless "read the
objection and determined that it did not state any grounds for denial of the fee application."27
Howell claims that the bankruptcy court erroneously granted the application for allowance of attorneys' fees
and costs, but he has not identified any issues demonstrating that the bankruptcy court's order constituted an
abuse of discretion. See Anderson, 936 F.2d at 203. Howell does not allege that the bankruptcy court failed to
apply the proper legal standard or follow proper procedures, and he has not shown that the award was based
on clearly erroneous findings of fact. See Evangeline Refining Co., 890 F.2d at 1325. Instead, Howell asserts in a
conclusory fashion that the fees and expenses set forth in the application are "excessive" and "unreasonable"
because they relate to the administering of "an estate with one secured creditor and one estate asset."28 Howell
also alleges that the fees and expenses were incurred "while scheming to defraud [him]."29

7a
As evident in the detailed application for allowance of attorneys' fees and costs, as well as the attached
invoices, the expenses incurred covered a period of over six years for professional services rendered in
connection with Howell and LaMartina's foreclosure and bankruptcy proceedings.30 And, as stated previously,
the application addressed the lodestar calculation of attorneys' fees and each of the Johnson factors for an
adjustment of the lodestar amount.31 Gordon Arata, Seale & Ross, and Chaffe McCall also explained that a
portion of these expenses was necessitated by the need to respond to continuing litigation initiated by Howell
and LaMartina, despite a permanent injunction prohibiting Howell and LaMartina from pursuing such claims.32
Howell's untimely opposition to the application simply rehashes his arguments regarding his alleged secured
claim in the mortgage note and accusations of fraud by the Trustee and his attorneys.33
The Court finds no abuse of discretion by the bankruptcy court in its order on the allowance of attorneys'
fees and costs. Because this Court reviews the bankruptcy court's findings of fact underlying its award for clear
error, the Court defers to the bankruptcy court's factual findings unless, after reviewing all the evidence, the
Court is "left with a firm and definite conviction that the bankruptcy court made a mistake." In re Cahill, 428
F.3d 536, 542 (5th Cir. 2005) (citing In re Bradley, 960 F.3d 503, 507 (5th Cir. 1992)) (internal quotation marks
omitted). The Court does not have any such conviction here based on its review of the bankruptcy court's
factual findings and the evidence presented. There has also been no demonstration that the bankruptcy court
failed to apply the proper legal standard or that it followed improper procedures in reaching its decision. See
Evangeline Refining Co., 890 F.2d at 1325.
Accordingly, Howell's appeal is frivolous because he has not demonstrated that his appeal has an arguable
basis in fact or law. See Neitzke, 490 U.S. at 325. In his appeal of the bankruptcy court's order, Howell
improperly raises issues that have already been adjudicated and that Howell has been permanently enjoined
from litigating—specifically, allegations of misconduct by the Trustee and his attorneys in these proceedings
and claims relating to litigation arising from the mortgage note.34 Moreover, despite Howell's assertion that he
is the only secured claimant of Grodsky's estate, based on a "Confessed Judgment Promissory Note" and
Security Agreement allegedly executed in 2007, the record shows—and Howell acknowledges—that these
documents were cancelled on September 6, 2013.35
Howell has not presented any argument to the Court that the claims he is raising again in the instant appeal
are not barred by the prior orders of this Court and the bankruptcy court. Instead, Howell's appeal is another
improper attempt to take "more than 'one bite of the apple'" and continue this protracted bankruptcy
proceeding.36 Matter of Baudoin, 981 F.2d 736, 739-40 (5th Cir. 1993). The in forma pauperis statute may not
be used for such frivolous and abusive litigation. See In re Hall, 354 F. App'x 842, 843 (5th Cir. 2009).
For the foregoing reasons, IT IS ORDERED that the motion is GRANTED and Howell's appeal of the bankruptcy
court's December 18, 2019 order is DISMISSED WITH PREJUDICE.
New Orleans, Louisiana, March 13, 2020.
LANCE M. AFRICK
UNITED STATES DISTRICT JUDGE
3R. Doc. No. 4.
2The Court need not restate the entire procedural history of the case, as it has been recounted in great detail in the Written Reasons for
Order issued by the bankruptcy court on April 12, 2019. See R. Doc. No. 74, Howell v. Adler, No. 18-1006 (Bankr. E.D. La. Apr. 12, 2019).
3 R. Doc. No. 124, In re Grodsky, No. 09-13383 (Bankr. E.D. La. May 1, 2015); see R. Doc. No. 74, Howell v. Adler, No. 18-1006 (Bankr. E.D.
La. Apr. 12, 2019). Howell moved to reconsider the turnover order, which the bankruptcy court denied. R. Doc. No. 136, In re Grodsky,
No. 09-13383 (Bankr. E.D. La. Dec. 2, 2015).
4 Howell v. Adler, No. 18-1006 (Bankr. E.D. La. 2018).
5 R. Doc. No. 63, Howell v. Adler, No. 18-1006 (Bankr. E.D. La. June 13, 2018).
6R. Doc. No. 11, In re Howell, No. 19-10068 (E.D. La. May 31, 2019).

8a
7 Chaffe McCall, the Trustee's current general counsel, was also allowed attorneys' fees and costs pursuant to the bankruptcy court's
order, although it did not join in the motion to dismiss Howell's appeal. Gordon Arata is the Trustee's former general counsel, and Seale
& Ross is the Trustee's special counsel for the foreclosure proceedings on Howell and LaMartina's condominium. R. Doc. No. 4-2, at 2.
8See R. Doc. No. 157, In re Grodsky, No. 09-13383 (Bankr. E.D. La. Nov. 27, 2019).
9See id. at 3-8. These factors are: (1) the time and labor required; (2) the novelty and difficulty of the questions; (3) the skill requisite to
perform the legal service properly; (4) the preclusion of other employment by the attorney due to acceptance of the case; (5) the
customary fee; (6) whether the fee is fixed or contingent; (7) time limitations imposed by the client or other circumstances; (8) the
amount involved and the results obtained; (9) the experience, reputation, and ability of the attorneys; (10) the "undesirability" of the
case; (11) the nature and length of the professional relationship with the client; and (12) awards in similar cases. See Johnson, 488 F.2d
at 717-19.
10See R. Doc. No. 157-1, In re Grodsky, No. 09-13383 (Bank. E.D. La. Nov. 27, 2019).
11 See R. Doc. No. 1-2. The bankruptcy court explained that it considered the application, "including, without limitation, the agreement
between the parties regarding the allocation of the fees against the limited available funds for distribution set forth on Exhibit E to the
Application," the Order Approving Compromise, the pleadings, and the record in this case. Id. at 1. The bankruptcy court also found that
proper notice was given to all creditors and parties-in-interest. Id.
12 Id. at 2-3.
13 Id. at 3.
14 Id.
15 R. Doc. No. 1.
16 R. Doc. No. 2, at 5.
17 R. Doc. No. 159, In re Grodsky, 09-13383 (Bankr. E.D. La. Dec. 16, 2019).
18 See R. Doc. No. 4-2, at 4-5.
19 Id. at 7.
20 Rule 8003(a)(2) states in pertinent part: "An appellant's failure to take any steps other than the timely filing of a notice of appeal does
not affect the validity of the appeal, but is ground only for the district court or BAP [Bankruptcy Appellate Panel] to act as it considers
appropriate, including dismissing the appeal." Fed. R. Bankr. P. 8003(a)(2).
21 See R. Doc. No. 4-2, at 4.
22See id.
23The Bankruptcy Fee Compendium states, "28 U.S.C. § 1930(f)(3) seems to provide that district and bankruptcy courts may waive fees
for other debtors and creditors, but it qualifies this authority by providing that the waiver is to be in accordance with Judicial Conference
policy. The circuits disagree whether 28 U.S.C. § 1915(a) authorized in forma pauperis adversary proceeding complaints and appeals for
parties other than individual chapter 7 debtors." Bankruptcy Fee Compendium III (June 1, 2014 Edition), Part A, § 7(C)(2), p. 15-16; see
Part G, § 1(C)(7), p. 63 n.263 (same).
24 See R. Doc. No. 163, In re Grodsky, No. 09-13383 (Bankr. E.D. La. Dec. 30, 2019) (docket entry noting that the filing fee was waived).
Although Gordon Arata and Seale & Ross contend that the notation of the fee waiver on the docket sheet was a "clerical mistake," the
Court has confirmed with the bankruptcy court that it did not require Howell to pay the prescribed fee in connection with his instant
appeal of the bankruptcy court's order. The United States Bankruptcy Judge in this case advised the Court that it is customary practice in
bankruptcy court for the bankruptcy clerk to obtain the bankruptcy judge's approval prior to waiving the filing fee.
25 See R. Doc. No. 7.
26 R. Doc. No. 1-2.
27 Id. at 1 n.l.
28 R. Doc. No. 16, at 5.
29 Id.
30 See R. Doc. No. 157, In re Grodsky, No. 09-13383 (Bankr. E.D. La. Nov. 27, 2019). The application covered a period from 2013 to 2019,
as the Trustee filed a motion to reopen the Chapter 7 proceedings in 2013 to investigate ownership of the mortgage note. See R. Doc.
No. 74, at 2, Howell v. Adler, No. 18-1006 (Bankr. E.D. La. Apr. 12, 2019).
31 See R. Doc. No. 157, In re Grodsky, No. 09-13383 (Bankr. E.D. La. Nov. 27, 2019).
32See id. at 5-7. 33 See R. Doc. No. 159, In re Grodsky, No. 09-13383 (Bankr. E.D. La. Dec. 16, 2019).
34See R. Doc. No. 63, Howell v. Adler, No. 18-1006 (Bankr. E.D. La. June 13, 2018).
35 R. Doc. No. 15, at 1-2; R. Doc. No. 168, In re Grodsky, No. 09-13383 (Bankr. E.D. La. Jan. 27, 2020). Howell's argument that there was
"no consideration" for a valid cancellation is unavailing. See id. at 2.
36 As the bankruptcy court previously noted, Howell and LaMartina appeared to have been using "legal proceedings to live in the
condominium without paying the condo association dues and fees since 2002," and have spent "several years filing suits and
'discovering' new documents" to forestall foreclosure on the condominium. R. Doc. No. 74, at 9, Howell v. Adler, No. 18-1006 (Bankr. E.D.
La. Apr. 12, 2019). The Fifth Circuit has cautioned that "the filing of frivolous, repetitive, or otherwise abuse [sic] filings" by a party
seeking to proceed in forma pauperis "will invite sanctions," which may include "dismissal, monetary sanctions, and/or restrictions on
his ability to file pleadings in [the Fifth Circuit] and any court subject to [the Fifth Circuit's] jurisdiction." Hall, 354 F. App'x at 843.

9a

Appendix C
Bankruptcy Court Fee Order
UNITED STATES BANKRUPTCY COURT EASTERN DISTRICT OF LOUISIANA
IN RE: DONALD H. GRODSKY, DEBTOR
CASE NO. 09-13383
SECTION "B"
CHAPTER 7
ORDER

On November 27, 2019 the law firms of (1) Chaffe McCall, LLP ("Chaffe"), current attorneys for the Trustee; (2)
Gordon, Arata, Montgomery, Barnett, McCollam, Duplantis & Eagan, LLC ("GAMB"), former attorneys for the
Trustee; and (3) Seale & Ross, P.L.C., special counsel for the Trustee ("Seale" or "Special Counsel") filed a Joint
First And Final Application of Chaffe McCall, LLP, Gordon, Arata, Montgomery, Barnett, et al., and Seale &
Ross, P.L.C. for Allowance of Fees and Costs (“Application”). A LATE opposition was filed by John LamartinaHowell [P-159]. No timely objections were filed.
After considering the Application [P-157] (including, without limitation, the agreement between the parties
regarding the allocation of the fees against the limited available funds for distribution set forth on Exhibit E to
the Application), the Order Approving Compromise (“Compromise Order”) [P-77], the pleadings, and the record
in this case, and finding that proper notice was given to all creditors and parties-in-interest, that no timely
objections were filed1, and it appearing that Chaffe, GAMB, and Seale duly rendered the services and incurred
the expenses as set forth in the Application and that the services rendered and the expenses incurred were
reasonable;
IT IS HEREBY ORDERED that:
1. The law firm of GAMB is allowed fees in the amount of $74,217.50 for professional services rendered to this
estate as attorneys for the Trustee for the period of August 22, 2013 through January 4, 2017, and $3,001.05 as
reimbursement for expenses for a total of $77,218.55.
2.The law firm of Chaffe McCall, LLP is allowed fees in the amount of $43,671.25 for professional services
rendered to this estate as attorneys for the Trustee for the period of February 9, 2017 through the hearing on this
Application, and $299.15 as reimbursement for expenses for a total of $43,970.40.
3 .The law firm of Seale & Ross, P.L.C. is allowed fees in the amount of $ 15,760.00 for professional services
rendered to this estate as attorneys for the Trustee for the period of March 7, 2016 through November 12, 2019,
and $3,119.702 as reimbursement for expenses for a total of $18,879.70.
IT IS FURTHER ORDERED that the Trustee is authorized and directed to pay the above allowed fees and
expenses in accordance with the allocation agreement reached between the parties set forth on Exhibit E to the
Application, a true copy of which is attached to this Order as Exhibit 1. In particular, as set forth more fully on
Exhibit 1, the Trustee is authorized and directed to make the following payments immediately upon entry of this
order of allowance:
(a)$l8,879.70 to Seale & Ross for fees and expenses;
(b)$43,451.98 for fees and $3,001.05 for expenses for a total of $46,453.03 to GAMB;
(c)$25,568.12 for fees and $299.15 for expenses for a total of $25,867.27 for fees and expenses to Chaffe; and
(d)$ 1,500.00 for fees and expenses to Chaffe for the approval fees and expenses (i.e., those associated with
preparing the necessary pleadings, spreadsheets, and other documents for obtaining approval of the Joint
Application and for obtaining the agreement among the Applicants as to the allocation of the limited funds
among the administrative claimants).

10a
IT IS FURTHER ORDERED that the above awards of compensation be given final approval and that the
allowed amounts (as allocated on Exhibit 1 which corresponds to the payments amounts set forth in subparts (a),
(b), (c), and (d) above) be paid immediately upon entry of this Order. IT IS FURTHER ORDERED thatthe
$8,800 reserve for the Trustee’s statutory commission and reimbursement of expenses and the $2,000 reserve for
future costs (set forth on Exhibit 1) will be held by the Trustee pending the filing by the Trustee of his final
account or further order of the Court. Any funds remaining after payment of the Trustee’s statutory commission
and reimbursement of expenses shall be allocated and paid to GAMB and Chaffe on the same 63%/37%
allocation basis as provided for in Exhibit 1.
New Orleans, Louisiana, December 18, 2019.
Jerry A. Brown
U.S. Bankruptcy Judge
i Although

the objection filed was late, the court did read the objection and determined that it did not
state any grounds for denial of the fee application.
2 The expense reimbursement included in Seale’s invoice (attached to the Application as Exhibit C) is $3,050.03
for “advances” and $69.67 for “expenses” totaling $3,119.70. The $69.67 “expenses” amount is correctly
included in the total fee and expense amount to be paid to Seale on the allocation agreement attached as Exhibit
E to the Application (and Exhibit 1 to this Order), but a clerical error was made in the text of the Application
which only listed the “advances” amount and not the additional $69.67 “expenses” amount. Chaffe and GAMB,
the parties that would be paid the $69.67 amount on a prorated basis if it is not paid to Seale, both agree that the
$69.67 amount is properly payable to Seale as set forth on Exhibit 1.
Available Funds 103,500.00 less
Seale & Ross -18,879.70
Cap for approval fees and costs* -1,500.00
Trustee commission and expenses -8,800.00
Reserve for possible future costs* -2.000.00
Amount to be shared b/w GAMB 8i Chaffe before costs 72,320.30
Prior GAMB costs -3,001.05
Prior Chaffe costs -299.15
Avail, amount to be prorated b/w GAMB & Chaffe 69,020.10
rate
hours
7,200.00
percentage
32.00
225.00
GAMB-FLL
67,017.50
275.00
243.70
GAMB-DJM
74,217.50 74,217.50
63%
GAMB -Total Fees
1.90
225.00
427.50
Chaffe-FLL
3,243.75
157.25
275.004
Chaffe-DJM
43,671.25 43,671.25
37%
Chaffe - Total Fees

Total Fees

117,888.75 100%

Avail. Amount to be prorated b/w GAMB & Chaffe
69,020.10
63%
GAMB%
43,451.98
Fees to GAMB
37%
Chaffe%
25,568.12
Fees to Chaffe
69,020.10
TOTAL Fees to GAMB and Chaffe
Total amounts to be distributed to GAMB and Chaffe:
43,451.98
GAMB fees
3.001.05
3,001.05
GAMB costs
46,453.03
Total amount to be distrib. To GAMB
25,568.12
Chaffe fees
299.15
299.15
Chaffe costs
25,867.27
Total amount to be distrib. To Chaffe
72,320.30*
Total to be distributed to GAMB and Chaffe:*
To the extent the application fees and costs are less than $1500 and/or the reserve is unused for future costs, such excess shall be
Exhibit 1
allocated between GAMB and Chaffe on the same 63%/37% basis.

Case 09-13383 Doc 161 Filed 12/18/19 Entered 12/18/19 09:13:29

Additional material
from this filing is
available in the
Clerk's Office.

